No.
INTHE

~upreme <!Court of tbe mntteb ~tateg
RIMINI STREET, INC.,

Petitioner,
V.
ORACLE USA, INC., ORACLE AMERICA, INC., AND
ORACLE INTERNATIONAL CORPORATION,

Respondents.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 5th day of November, 2019, I caused three copies of the Petition for a Writ
of Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version of the same to be transmitted to the counsel
identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties required
to be served have been served.

Counsel for Respondents:
Paul D. Clement
Erin E. Murphy
Matthew D. Rowen
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave, NW
Washington, DC 20005
(202) 879-5000
paul.clement@kirkland.com

William A. Isaacson
Karen L. Dunn
BOIES, SCHILLER & FLEXNER LLP
1401 New York Ave, NW
Washington, DC 20005
(202) 237-2727
wisaacson@bsfllp.com

David B. Salmons

John A. Polito

1111 Pennsylvania Ave, NW
Washington, DC 20004
(202) 739-3000
david.salmons@morganlewis.com

One Market Street
Spear Street Tower
San Francisco, CA 94105
(415) 442-1000
john.polito@morganlewis.com

MORGAN LEWIS & BOCKIUS LLP

MORGAN, LEWIS & BOCKIUS LLP

2

